           JOINT HEARING BEFORE THE
COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM,
SUBCOMMITTEE ON ENERGY POLICY, HEALTH CARE AND
 ENTITLEMENTS AND THE COMMITTEE ON HOMELAND
   SECURITY, SUBCOMMITTEE ON CYBERSECURITY,
   INFRASTRUCTURE PROTECTION, AND SECURITY
                 TECHNOLOGIES
        U.S. HOUSE OF REPRESENTATIVES

 “ACA – INFORMATION TECHNOLOGY READINESS
             AND DATA SECURITY”




                      Testimony of
  Alan R. Duncan, Assistant Inspector General for Audit
    Treasury Inspector General for Tax Administration

                      July 17, 2013

                   Washington, D.C.
                             TESTIMONY OF
            Alan R. Duncan, Assistant Inspector General for Audit
       TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                before the
COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM, SUBCOMMITTEE ON
  ENERGY POLICY, HEALTH CARE AND ENTITLEMENTS AND COMMITTEE ON
       HOMELAND SECURITY, SUBCOMMITTEE ON CYBERSECURITY,
     INFRASTRUCTURE PROTECTION, AND SECURITY TECHNOLOGIES
                   U.S. HOUSE OF REPRESENTATIVES

                      “ACA – Information Technology Readiness and Data Security”

                                                    July 17, 2013

        Chairman Lankford, Chairman Meehan, Ranking Member Speier, Ranking
Member Clarke, and Members of the Subcommittees, thank you for the opportunity to
testify on the Internal Revenue Service’s (IRS) Information Technology systems for the
Affordable Care Act, how information will be sent and exchanged, and the safeguards to
protect taxpayer data.

       The Patient Protection and Affordable Care Act1 and the Health Care and
Education Reconciliation Act of 2010 that made amendments to it (collectively referred
to as the “ACA”) contain an extensive array of tax law changes that will present many
challenges for the IRS in the coming years. The ACA provisions provide incentives and
tax breaks to individuals and small businesses to offset health care expenses. They
also impose penalties, administered through the tax code, for individuals and
businesses that do not obtain health care coverage for themselves or their employees.
The ACA represents the largest set of tax law changes in more than 20 years and
represents a significant challenge to the IRS.

       The ACA will require collaboration and coordination among many players
including the IRS; the Departments of Health & Human Services (HHS), Treasury,
Labor, Veterans Affairs, and Homeland Security; the Social Security Administration;
State governments; and the private sector including insurers, employers, individuals,
hospitals, practitioners, etc.



                                                 
 
1
 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat.
1029.
                                                         1
 
 
        The IRS’s role with respect to the ACA is to implement and administer its various
provisions that have an impact on tax administration. This requires numerous actions,
activities, and programs, such as revising or developing new forms, publications, and
instructions; creating new computer programs; training IRS employees; revising Internal
Revenue Manuals; issuing revenue procedures and regulations; and providing outreach
to taxpayers and tax professionals. The effective dates of the ACA provisions range
from Tax Year 2009 (retroactively) to 2018.

        While the Department of Health & Human Services will take the lead in
developing the policy provisions of the Act, the IRS will be required to build new
computer applications and business processes that do not exist within the current tax
administration system and to modify existing systems and processes. The IRS’s Fiscal
Year 2014 budget request includes additional funding needs of $440 million for
continued efforts related to the implementation of the ACA. The largest component of
this increase is $306 million for the implementation of the information technology
changes needed to deliver income information, tax credits, and other ACA
requirements.

        One major provision of the ACA is the requirement for individuals to maintain
minimum essential health care coverage or face a continuous tax penalty. The penalty
will be imposed on any taxpayer who, for any month after Calendar Year 2013, fails to
maintain minimum essential health care coverage. Individuals can obtain health care
coverage from their employers, purchase individual coverage, or obtain coverage
through one of the State Exchanges or the Federal Exchange (collectively referred to as
the Exchanges).2

        The open enrollment period for the Exchanges starts in October 2013 and the
first health insurance coverage year is 2014.3 With the ACA, the IRS will be receiving
returns and health insurance-related information from many sources to support the 2015
Filing Season. The Non-Exchange portion of the ACA includes additional taxes and
fees as well as new tax filing requirements.  The Non-Exchange provisions will require
the IRS to develop systems to implement various ACA funding provisions, including
computer applications to collect and process industry fees and taxes; ensure


                                                 
 
2
  Exchanges are intended to allow eligible individuals to obtain health insurance, and all Exchanges,
whether State-based or established and operated by the Federal government, will be required to perform
certain functions.
3
  Open enrollment is the period of time that individuals who are eligible to enroll in a Qualified Health Plan
can enroll in a plan at an Exchange. The open enrollment period is October 1, 2013 to March 31, 2014.
                                                      2
 
 
compliance with ACA provisions; and manage the collection and processing of ACA
information returns.

       The information technology and security challenges for the ACA are considerable
and include implementation of interdependent projects in a short span of time, evolving
requirements, coordination with internal and external stakeholders, cross-agency
system integration, and testing. ACA implementation will have a significant impact on
existing systems, so there must be bandwidth to support all provisions. Finally, projects
must be staffed with personnel who have the required knowledge and skills to efficiently
deploy new technologies. To manage these challenges, the IRS created a Project
Management Office for the ACA within the Information Technology Services program
area.

Role of the IRS in Information Technology Support for the ACA

       The IRS’s implementation plan for ACA Exchange provisions includes providing
information on eligibility and enrollment, developing calculations for the Advanced
Premium Tax Credit,4 reconciling Premium Tax Credits5 with reported taxable income,
and developing new ACA information collection and processing systems. These
provisions require development of new computer systems, modification of existing
systems, revision and/or creation of new fraud detection systems, and deployment and
testing of new interagency communication portals to support ACA operations.

       The ACA health coverage enrollment process starts when an applicant applies at
the Federal or State Exchanges. The Social Security Administration will verify the
applicant’s Social Security Number, lawful presence, and prisoner status. The
Department of Homeland Security will provide the legal immigration status of the
applicant and dependents.

      The enrollment process carried out by the HHS and the Exchanges is illustrated
in Appendix 1.

       The Exchanges will request income and family size information for each
applicant and family members who are qualified to apply for health insurance and will
forward the request to the IRS. The HHS Data Services Hub provides the connections
                                                 
 
4
  An Advanced Premium Tax Credit is paid in advance to a taxpayer’s insurance company to help cover
the cost of premiums.
5
  A refundable tax credit to assist individuals and families in purchasing health insurance coverage
through an Affordable Insurance Exchange.
                                                    3
 
 
for the Exchanges and all other Federal agencies, including the IRS. The HHS Data
Services Hub is connected to the IRS through the IRS Transactional Portal
Environment.

       The IRS, using Federal tax data, will determine the applicant’s historical
household income, family size, filing status, adjusted gross income, taxable Social
Security benefits, and other requested information. The IRS will then transmit the
Federal tax data to the HHS Data Services Hub for delivery to the appropriate
Exchange. The Exchanges will compare the IRS information with the information
provided by the applicant and other available data.

       The Treasury Inspector General for Tax Administration (TIGTA) has issued a
report on the IRS Income and Family Size Verification Project and found that the project
was on schedule and the IRS was managing known information technology risks at the
time the audit was conducted.6 TIGTA made recommendations to improve the
management of ACA changes to requirements and to use an integrated suite of
automated tools to manage ACA requirements and application test cases. TIGTA
remains concerned about the protection of confidential taxpayer data that will be
provided to the State and Federal Exchanges. For this reason, we will include a review
of the protection of taxpayer data by organizations outside of the IRS in our planned
audit of ACA data security.

       The Exchanges will use the income and family size information received from the
IRS as well as information provided by the applicant and other data sources in finalizing
the income amounts and family size. The Exchanges will provide these final amounts to
the IRS to calculate the Maximum Advanced Premium Tax Credit. The Exchanges will
prepare an Advanced Premium Tax Credit request and forward it to the IRS for
processing. TIGTA will be initiating an audit to review the accuracy of the data that the
IRS provides to the HHS for use in enrolling individuals and calculating the Advanced
Premium Tax Credit, and plans to issue a report in Fiscal Year 2014.

       The IRS developed the Advanced Premium Tax Credit application and calculator
to determine each applicant’s eligibility for the Maximum Advanced Premium Tax Credit.
The applicant chooses the amount of Advanced Premium Tax Credit desired up to the
maximum amount provided by the IRS and selects and purchases a health insurance
plan.
                                                 
 
6
 TIGTA, Ref. No. 2013-23-034, Affordable Care Act: The Income and Family Size Verification Project:
Improvements Could Strengthen the Internal Revenue Service’s New Systems Development Process
(Mar. 2013).
                                                    4
 
 
       The flow of data for the Income and Family Size Verification Project and the
calculation of the Advanced Premium Tax Credit are summarized in Appendix 2.

        The Department of the Treasury is notified by the Exchanges of the Advanced
Premium Tax Credit amount selected and will forward a check in the approved amount
directly to the insurer. During each filing season, the IRS will reconcile the Advanced
Premium Tax Credit originally claimed against the actual income and family size
reported on individuals’ tax returns. If the Credit amount is too low, the IRS will refund
the remaining Credit to the taxpayer when the taxpayer files his or her tax return. If it is
too high, the IRS will assess the additional Credit on the taxpayer’s account and attempt
to collect it.

        There could be many reasons why the Credit is different when the tax return is
filed. For example, the taxpayer’s income could have changed from the prior year when
the taxpayer applied for health coverage, or the taxpayer’s family size may have
increased or decreased from the prior year. TIGTA is concerned that the potential for
refund fraud and related schemes could increase as a result of processing ACA
Premium Tax Credits unless the IRS builds, implements, updates, and embeds ACA
predictive analytical fraud models into the tax filing process.

        Health insurance premium data and other ACA information will flow to the IRS
directly from individuals, employers, and insurance providers before each tax filing
season and will contain the critical data needed for processing tax returns and
determining the actual Premium Tax Credit for applicable individuals and businesses.
Beginning in Calendar Year 2014, State Exchanges and the Federal Exchange will
transmit data to the IRS on a monthly basis. The data will identify all taxpayers and
dependents covered by qualified health plans and will contain details on the Advanced
Premium Tax Credit paid to insurers on behalf of the taxpayer for each month, as well
as additional health insurance information. These data will be retained by the IRS for
use during the tax filing season.

       TIGTA is currently conducting an audit of the IRS’s application development and
testing for the Advanced Premium Tax Credit application and calculator and will finalize
the report before the beginning of the October 2013 open enrollment period.7


                                                 
 
7
 TIGTA, Audit No. 201320312, Review of Systems Development Activities for the Premium Tax Credit
Project Under the Affordable Care Act Program, report planned for September 2013.
                                                    5
 
 
     TIGTA’s understanding of the flow of ACA tax information is summarized in
Appendix 3.

Security and Protection of Taxpayer Data

       The Federal tax data provided to the HHS and the Exchanges will be protected
through the IRS’s Safeguard Review Program. The Internal Revenue Code authorizes
the IRS to disclose Federal tax information to various Federal, State, and local entities.
However, before agencies receive Federal tax information, they must submit a formal
report called the Safeguard Procedures Report that describes how the agency will
protect and safeguard the data. In addition, agencies are required to annually submit a
Safeguards Activity Report to describe any changes to the Safeguard Program, advise
on future actions, and certify that they are protecting the data. The Safeguard office
also conducts on-site reviews of each agency that receives Federal tax Information.

       TIGTA is currently conducting an audit of the IRS’s Safeguard Program and will
issue a report on its operations in Fiscal Year 2014.8 TIGTA has concerns that the
Safeguard Program may lack sufficient staffing or funding to adequately expand its
operations to include the addition of the Federal and State Exchanges. We plan to
assess the protection of Federal tax data provided by the Program in the future.

Protection Against Fraudulent ACA Tax Return Processing

        The IRS has also developed a plan for the prevention, detection, and resolution
of fraud and abuse during ACA tax return processing. The plan, when fully developed
and implemented, is designed to leverage third-party reporting from the Exchanges and
new computer analytical capability built into the Return Review Program.9 The plan
calls for the development of the ACA Validation Service which will be used to identify
improper ACA-related refunds. The ACA Validation Service will be designed to perform
screening for improper refunds and will also identify fraudulent schemes that include
multiple returns. The IRS plans to rely on the Electronic Fraud Detection System and/or
the new Return Review Program to provide the systems to identify and prevent
ACA-related refund fraud.


                                                 
 
8
  TIGTA, Audit No. 201320029, Review of the Internal Revenue Service’s Office of Safeguards, report
planned for February 2014.
9
  The Return Review Program is the key automated component of the IRS’s pre-refund initiative and will
implement the IRS’s new business model for a coordinated criminal and civil tax noncompliance approach
to prevent, detect, and resolve tax refund fraud.
                                                    6
 
 
       The applications for processing electronic and paper tax returns will need to be
modified before January 2015 to be able to use the new ACA Validation Service to
determine if a taxpayer claiming the Premium Tax Credit also purchased insurance
through the Exchanges or received an Advanced Premium Tax Credit in 2014, and if
any math errors exist.

       TIGTA is currently performing a system development audit of the Return Review
Program that will include the development and design of ACA fraud and abuse
provisions.10 We have concerns that the Return Review Program may not be
operational in sufficient time to identify ACA-related refund fraud and that the IRS’s
existing fraud detection systems may not be capable of identifying ACA refund fraud or
schemes prior to the issuance of tax return refunds.

       In addition, TIGTA plans to conduct several audits of ACA processing and
operations for the 2014 and 2015 filing seasons. These will address the IRS’s
processing of various tax returns and evaluate whether taxpayers are eligible for the
ACA tax provisions claimed on tax returns. The need for the IRS’s systems to be fully
operational before the next filing season begins is critical to Federal tax administration.
The IRS will need to ensure that tax returns accurately claim the various applicable ACA
provisions, and, above all, that taxpayers are treated fairly.

Interagency Testing of ACA Systems

       The HHS and the IRS have jointly developed an Interagency Test Plan for the
2013 open enrollment period that documents the test design and management activities
they have agreed upon. The Interagency Test Plan establishes how the systems
supporting the open enrollment will be tested to ensure operational communication,
functionality, and interoperability.11 The HHS systems involved in this testing include
the Federal Exchange, which provides interface capability for citizens to apply for health
care coverage. In addition, the HHS Data Services Hub will provide
telecommunications support to enable the various Federal agency systems to share
data for ACA purposes.

      From the IRS perspective, the Plan includes the capabilities of the Income and
Family Size Verification Project and the Advanced Premium Tax Credit application. The
                                                 
 
10
   TIGTA, Audit No. 201220011, Return Review Program Transition State 1 Systems Development
Activities, report planned for September 2013.
11
   The ability of two or more systems or components to exchange information and to use the information
that has been exchanged.
                                                    7
 
 
HHS Data Services Hub is connected to the IRS through the Transactional Portal
Environment. The IRS and the HHS plan to jointly capture and manage test results,
including tracking and monitoring any reported issues until they are resolved. However,
TIGTA is concerned that final integration testing for all of the various agency systems,
communications, and the Federal and State Exchanges will be difficult to complete
before the start of the enrollment process in October 2013. The lack of adequate
testing could result in significant delays and errors in accepting and processing ACA
applications for health insurance coverage.

       TIGTA plans to review the testing results and where possible will observe the
testing and include our assessment in upcoming reports. We will also closely
coordinate with the HHS’ Office of Inspector General to ensure that all aspects of the
systems are reviewed. TIGTA plans to conduct a comprehensive audit of the security
over Health Insurance Exchange information maintained both by the IRS and the
Exchanges where Federal tax data has been provided. TIGTA also plans to review the
implementation of statutorily-mandated data protection of Federal tax data and will
evaluate the adequacy of data security, disaster recovery, availability, reliability,
operational readiness, and testing of new systems.

TIGTA’s ACA Oversight Strategy

      Several key ACA provisions will become effective in Fiscal Year 2014, making
Fiscal Year 2014 and Calendar Year 2015 a significant period for ACA oversight. In
addition, many provisions that previously became effective will require continued
oversight to ensure that appropriate corrective actions are taken by the IRS. Because
of the extensive changes to numerous tax code provisions, our concerns related to the
development and implementation of new ACA systems, and the extensive coordination
required between all of the stakeholders to effectively administer the ACA, TIGTA has
implemented a multi-year oversight strategy that includes audits, evaluations, and
investigative resources to assess the IRS’s implementation of the ACA. This strategy
includes coordination with other agencies, including the HHS Office of Inspector
General.

     Chairman Lankford, Chairman Meehan, Ranking Member Speier, Ranking
Member Clarke, and Members of the Subcommittees, thank you for the opportunity to
share my views and observations.




                                           8
 
 
    Appendix 1 – Applicant Enrollment Process 




                        9
 
 
    Appendix 2 ‐ Affordable Care Act Exchange Data Flows 




                             10
 
 
    Appendix 3 – Flow of ACA Tax Information 




                       11
 
 
Alan R. Duncan
Assistant Inspector General for Audit
Treasury Inspector General for Tax Administration

Alan R. Duncan is the Assistant Inspector General Audit (Security and Information
Technology) at the Treasury Inspector General for Tax Administration (TIGTA). Mr.
Duncan is responsible for audits and oversight of the Internal Revenue Service’s
information security, business system modernization, application development, and
computer operations.

Mr. Duncan provides executive leadership in predictive analytics and data mining to
identify meaningful patterns in IRS tax administration and operational databases
representing potential systemic and/or integrity issues for TIGTA.

Mr. Duncan earned his Masters of Business Administration from Mount St. Mary’s
University and a Bachelor of Science degree from Fairmont University. Mr. Duncan
also completed the Wharton Information Systems Program at the University of
Pennsylvania.

Mr. Duncan began his auditing career with the Army Audit Agency and joined the
Defense Audit Service for tours in Europe and the Middle East. He also served as the
Director of Computer Audits for the Department of Transportation Inspector General.

In the private sector, Mr. Duncan served as the President and CEO of Dynamic Access
Systems, Vice President of Information Systems for Irving Burton Associates, and
President of Duncan Technologies. In addition, Mr. Duncan served as an adjunct
professor at Mount Saint Mary’s University and Hood College where he developed and
taught information system courses.




                                          12
 
 
